CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Rules of the Supreme Court of the United
States, I hereby certify that all parties required to be served have been served. On
December 5, 2019, I caused a copy of RESPONDENTS’ REQUEST FOR
EXTENSION OF TIME TO FILE RESPONSE TO PETITION FOR WRIT OF
CERTIORARI to be served via third-party commercial carrier for overnight
delivery, with all fees thereon prepaid, and via electronic mail on the following
parties:
Scott Alan Burroughs
Email: scott@donigerlawfirm.com
Trevor W. Barrett
Email: tbarrett@donigerlawfirm.com
Frank Gregory Casella
Email: fcasella@donigerlawfirm.com
Doniger/Burroughs
603 Rose Avenue
Venice, California 90291
Phone: 310-590-1820
Attorneys for Petitioner
Dated: December 5, 2019
/s/ Jessica S. Rutherford
Jessica S. Rutherford

